               Department of Veterans Affairs
               Office of Inspector General



                 Office of Healthcare Inspections

Report No. 14-00612-167




               Healthcare Inspection 


   Gastroenterology Fellowship 

         Program Issues 

 New Mexico VA Health Care System 

     Albuquerque, New Mexico 





May 23, 2014

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations:
                    Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
                      Web site: www.va.gov/oig
   Gastroenterology Fellowship Program Issues, New Mexico VA Health Care System, Albuquerque, NM



                                 Executive Summary 

The VA Office of Inspector General Office of Healthcare Inspections conducted an
inspection in response to complaints about the supervision of fellows in the
Gastroenterology (GI) Department at the New Mexico VA Health Care System (facility),
Albuquerque, NM. The complainant alleged that:

   	 The Accreditation Council of Graduate Medical Education (ACGME) 

      requires GI attending physicians to see patients in person within 24 hours

      of a fellow seeing a patient, and this is not being done in the facility GI

      Department. 

   	 The Chief of GI was co-signing GI Fellow consult notes with “in lieu of” for
      University of New Mexico (UNM) GI attending physicians who were not
      seeing patients.
   	 UNM GI attending physicians who see VA patients are not credentialed at

      the facility. 

   	 Senior leadership was either unwilling or unable to take corrective action.

We did not substantiate the allegation that the ACGME requires that patients seen by
fellows must also be seen in person within 24 hours by a credentialed attending
physician, and this is not being done in the facility GI Department. ACGME and VHA
require that each patient must have an identifiable, appropriately credentialed and
privileged attending physician who is ultimately responsible for that patient’s care.
Although VHA requires a supervising practitioner (from the admitting medical service) to
physically meet, examine, and evaluate a patient within 24 hours of an inpatient
admission, it is not required for inpatient or outpatient consultations for specialty
services.

We did not substantiate the allegation that the Chief of GI was co-signing GI Fellow
consult notes with “in lieu of” for UNM GI attending physicians who were not seeing
patients. We found that UNM GI fellows appropriately documented that patients were
discussed with their UNM GI supervising practitioner, or alternatively, we found an
addendum to the original GI consult note was entered by the UNM GI supervising
practitioner. We also found that the Chief of GI was adding an addendum to the GI
consult note and signing for administrative purposes to authenticate and complete the
GI consult notes so they would be accessible by other clinical staff. We did not
substantiate the allegation that UNM GI attending physicians were not credentialed at
the facility. We found that all four without compensation UNM GI attending physicians
who provided coverage at the facility were appropriately credentialed and privileged.

We did not substantiate the allegation that senior leadership was unwilling or unable to
take corrective action. We found that facility leadership was aware of the allegations,
had determined that they were unfounded, and had initiated appropriate follow-up prior
to our site visit. We made no recommendations.



VA Office of Inspector General                                                                 i
   Gastroenterology Fellowship Program Issues, New Mexico VA Health Care System, Albuquerque, NM


The Veterans Integrated Service Network and System Directors concurred with the
report. (See Appendixes A and B, pages 8 –9, for the Directors’ comments.) No
further action is required.




                                                         JOHN D. DAIGH, JR., M.D.
                                                        Assistant Inspector General for
                                                          Healthcare Inspections




VA Office of Inspector General                                                                 ii
    Gastroenterology Fellowship Program Issues, New Mexico VA Health Care System, Albuquerque, NM


                                                 Purpose 

The VA Office of Inspector General (OIG) Office of Healthcare Inspections conducted
an inspection to assess the merit of allegations made by an anonymous complainant
regarding the supervision of fellows in the Gastroenterology (GI) Department at the New
Mexico VA Health Care System (the facility), in Albuquerque, NM.

                                             Background 

The facility is part of Veterans Integrated Service Network (VISN) 18 and is a tertiary
care facility that delivers comprehensive medical care for veterans throughout New
Mexico and southwest Colorado. The facility has 310 beds, 184 of which are acute
hospital beds, and provides inpatient services for medicine, surgery, rehabilitation,
mental health, and spinal cord injury. The facility is affiliated with the University of New
Mexico School of Medicine (UNM).

Gastroenterology–Brief Overview

GI refers to the specialty of medicine devoted to the study, diagnosis, and treatment of
disorders of the digestive system.

The American Board of Internal Medicine (ABIM) is the primary certifying organization in
internal medicine and one of its 20 subspecialties is gastroenterology.1 ABIM is one of
24 medical specialty boards that make up the American Board of Medical Specialties, a
not-for profit organization.2 Through American Board of Medical Specialties, the boards
work together to establish common standards for physicians to achieve and maintain
board certification. Thus, ABIM sets educational standards to evaluate the competence
of physicians in gastroenterology. While ABIM sets standards and administers specialty
board certification tests to prospective specialists in gastroenterology, the Accreditation
Council for Graduate Medical Education (ACGME) is responsible for the actual
accreditation of residency3 training programs in the U.S., including those in
gastroenterology.4

VHA policy5 requires that residency training programs be accredited by ACGME or other
accrediting or certifying bodies. ACGME is a private professional organization that
establishes national standards for graduate medical education (GME) in the U.S.
ACGME accreditation is widely recognized in the medical community for ensuring
consistency and quality in GME and providing independent oversight of residency
training programs. Furthermore, the completion of ACGME-accredited residency

1
  See http://www.abim.org/about/default.aspx. Accessed February 24, 2014.

2
  See http://www.abms.org/. Accessed February 24, 2014. 

3
  The term “resident” includes individuals in their first year of training after completing medical school, who are 

sometimes referred to as “interns,” and individuals in approved subspecialty graduate medical education programs, 

who are also referred to as “fellows.” Fellows have already completed their residency training and are continuing

further training in a subspecialty program such as gastroenterology, which is a subspecialty of internal medicine.

4
  See http://www.acgme.org/acWebsite/home/home.asp. Accessed February 24, 2014. 

5
  VHA Handbook 1400.01, Resident Supervision, December 19, 2012 



VA Office of Inspector General                                                                                      1
    Gastroenterology Fellowship Program Issues, New Mexico VA Health Care System, Albuquerque, NM

training programs is a standard requirement for obtaining state medical licenses as well
as specialty and subspecialty board certifications. For example, to become certified in
the subspecialty of gastroenterology, physicians must be previously certified in internal
medicine by ABIM, complete subspecialty fellowship training in gastroenterology, and
pass the gastroenterology certification exam.

Gastroenterology–Fellowship Program

At the time of our onsite review, 13 physicians were enrolled in the UNM GI Fellowship
Program. The university fully operates and manages the school of medicine and its
associated residency programs and assumes the overall responsibility for its
educational programs.

Staff at the facility’s GI clinic oversee the UNM GI Fellowship Program. The facility GI
clinic was staffed by a full-time Chief and one full-time and one part-time staff physician.
The clinic operates Monday through Friday, from 8:00 a.m. to 4:30 p.m. On-call staff
were available during regular work hours, after-hours, and holidays. Additionally, four
without compensation (WOC)6 appointed UNM GI attending physicians were available
for after-hours coverage. After-hours staff covered GI patients at the facility and UNM.

Allegations

In October 2013, an anonymous complainant contacted OIG’s Hotline Division and
made allegations concerning the supervision of fellows in the GI Department at the
facility. Specifically, the complainant alleged that:

    	 The ACGME requires GI attending physicians to see patients in person 

       within 24 hours of a fellow seeing a patient, and this is not being done in 

       the facility GI Department. 


    	 The Chief of GI is co-signing GI Fellow consult notes with “in lieu of” for UNM GI
       attending physicians who were not seeing patients.

    	 UNM GI attending physicians that see VA patients are not credentialed at

       the facility. 


    	 Senior leadership was either unwilling or unable to take corrective action.

                               Scope and Methodology 

We conducted a site visit December 2–4, 2013. To address the complainant’s
allegations, we interviewed facility managers, credentialing and privileging coordinators,
staff physicians, and fellows in the GI Department. We reviewed relevant Veterans
Health Administration (VHA) policies; facility policies and procedures; the public access
websites for ACGME, ABIM, and American Board of Medical Specialties; credentialing

6
 A without compensation appointment is a personnel appointment by which an individual contributes efforts to VA
activities but receives no monetary compensation from the VA.


VA Office of Inspector General                                                                                2
    Gastroenterology Fellowship Program Issues, New Mexico VA Health Care System, Albuquerque, NM

and privileging profiles, committee meeting minutes, and quality management
documents. In addition, we reviewed all inpatient GI consult notes that were entered
into the electronic health records (EHRs) from June 5 through December 2, 2013. We
also reviewed 12 months of provider profiles located in VetPro7 and the Medical
Education Affiliation Agreement between the facility and UNM.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




7
 VetPro is an internet enabled data bank for the credentialing of VHA health care providers that facilitates
completion of a uniform, accurate, and complete credentials file.


VA Office of Inspector General                                                                                 3
    Gastroenterology Fellowship Program Issues, New Mexico VA Health Care System, Albuquerque, NM



                                   Inspection Results 

Issue 1: ACGME Program Requirements in GI

We did not substantiate the allegation that the ACGME requires that patients seen by
fellows must also be seen in person within 24 hours by a credentialed attending
physician and this is not being done in the facility GI Department.

ACGME Program Requirements for GME in GI8 address levels of supervision that may
be exercised through a variety of methods. Some activities require the physical
presence of the supervising faculty member, where other portions of care provided by
the fellow can be adequately supervised by the immediate availability of the supervising
faculty member, either in the institution or by means of telephonic and/or electronic
modalities. ACGME also requires that each patient must have an identifiable,
appropriately credentialed and privileged attending physician who is ultimately
responsible for that patient’s care.

VHA policy supports the principle that as part of their training programs, residents earn
progressive responsibility for the care of the patient. The determination of a resident's
ability to provide care to patients without a supervising practitioner present, or to act in a
teaching capacity, is based on documented evaluation of the resident's clinical
experience, judgment, knowledge, and technical skill. Ultimately, it is the decision of the
supervising practitioner as to which activities the resident will be allowed to perform
within the context of the assigned levels of responsibility.9

VHA policy requires that for a patient admitted to an inpatient service of the medical
facility, the supervising practitioner (from the admitting medical service) must physically
meet, examine, and evaluate the patient within 24 hours of admission, including
weekends and holidays. However, this is not required for inpatient or outpatient
consultations for specialty services.10

Issue 2: Co-Signing GI Consult Notes

We did not substantiate the allegation that the Chief of GI is co-signing GI Fellow
consult notes with “in lieu of” for UNM GI attending physicians who were not seeing
patients.

VHA policy requires that for inpatient consultations, a supervising practitioner is
responsible for each specialty service. When residents are involved in consultation
services, the consultant supervising practitioner is responsible for supervision of these
residents. Additionally, the policy requires that documentation of the supervision must
be entered into the patient’s EHR by the supervising practitioner or reflected in the


8
  See https://www.acgme.org/acgmeweb/Portals/0/PFAssets/2013-PR-FAQ-
PIF/144_gastroenterology_int_med_07132013.pdf. Accessed October 25, 2013. 

9
  VHA Handbook 1400.01. 

10
   VHA Handbook 1400.01. 


VA Office of Inspector General                                                                 4
      Gastroenterology Fellowship Program Issues, New Mexico VA Health Care System, Albuquerque, NM


resident progress note or other appropriate entries in the EHR (procedure reports,
consultations, discharge summaries).

Types of allowable documentation include any of the following:

      	 Progress note or other entry into the EHR by the supervising practitioner

      	 Addendum to the resident admission or progress note by the supervising 

         practitioner 


      	 Co-signature of the progress note or other EHR entry by the supervising 

         practitioner 


      	 A resident progress note or other medical record entry documenting the 

         name of the supervising practitioner with whom the case was discussed, a 

         summary of the discussion, and a statement of the supervising 

         practitioner’s oversight responsibility with respect to the assessment or 

         diagnosis and/or the plan for evaluation and/or treatment. (For example,

         statements such as, “I have seen and discussed the patient with my

         supervising practitioner, Dr. ‘X’ and Dr. ‘X’ agrees with my assessment and 

         plan” and “The supervising practitioner of record for this patient care 

         encounter is Dr. ‘X’,”11 meet documentation requirements.) 


VHA policy also requires that entries into the EHR by residents, or non-physicians,
require a countersignature and authentication (time, date, signature or initials, and the
professional designation) by the supervising practitioner, service chief, or designee.
Without a countersignature, the EHR entry is not viewable by other clinical staff and the
entry is considered incomplete.12

We reviewed all 43 inpatient GI consult notes from June 5 through December 2, 2013.
We found that UNM GI fellows appropriately documented that patients were discussed
with their UNM GI supervising practitioners who agreed with their assessments and
plans, or alternatively, we found addendums to the original consult notes were entered
by the UNM GI supervising practitioners.

We also found that the facility’s Chief of GI wrote an addendum on each UNM GI Fellow
consult note indicating, “This patient was presented to the UNM on-call attending
physician. I did not participate in the care of this patient. This note is signed by me
administratively only.” The Chief of GI indicated to us that this process was
implemented to ensure that all GI consult notes were authenticated and completed to
make them accessible by other clinical staff. Additionally, we were provided with a
memorandum that on April 20, 2011, the Chief of GI discussed this process with
Regional Counsel who concurred that this action was medically and legally desirable,
consistent with federal laws and regulations and VA and local policies, and provided
one more level of review.
11
     VHA Handbook 1400.01. 

12
     VHA Handbook 1907.01, Health Information Management and Health Records, August 25, 2006. 


VA Office of Inspector General                                                                    5
      Gastroenterology Fellowship Program Issues, New Mexico VA Health Care System, Albuquerque, NM


Issue 3: Credentialing and Privileging

We did not substantiate the allegation that UNM attending physicians were not
credentialed at the VA.

VHA policy requires that all VHA health care professionals who are permitted by law
and the facility to provide patient care services independently must be credentialed and
privileged. This includes health care professionals who are licensed independent
practitioners assigned or utilized on a full-time, part-time, or WOC basis.13

We reviewed the credentialing and privileging and the VetPro provider profiles for all
four WOC appointed UNM GI attending physicians and found that all were appropriately
credentialed and privileged at the facility.

Issue 4: Senior Leadership

We did not substantiate the allegation that senior leadership was unwilling or unable to
take corrective action.

Senior leadership was aware that the GI consult notes were being signed
administratively by the Chief of GI for the purposes of authenticating and completing the
GI consult notes to make them accessible by other clinical staff. Leadership was also
aware that this process was discussed with Regional Counsel and it was determined to
be consistent with federal laws and regulations and VA and facility policies.

                                            Conclusions 

We did not substantiate the allegation that the ACGME requires that patients seen by
fellows must also be seen in person within 24 hours by a credentialed attending
physician, and this is not being done in the facility GI Department. Although VHA
requires a supervising practitioner to physically meet, examine, and evaluate a patient
within 24 hours of an inpatient admission, it is not required for inpatient or outpatient
consultations in a specialty service.

We did not substantiate the allegation that the Chief of GI is co-signing GI Fellow
consult notes with “in lieu of” for UNM GI attending physicians who were not seeing
patients. We found that UNM GI fellows appropriately documented that patients were
discussed with their UNM GI supervising practitioner, or alternatively, we found an
addendum to the original consult note was entered by the UNM GI supervising
practitioner. We also found that the Chief of GI was adding an addendum to the consult
notes and signing for administrative purposes to authenticate and complete the GI
consult notes to make them accessible by other clinical staff. We did not substantiate
the allegation that UNM attending physicians were not credentialed at the facility. We
found that all four WOC appointed UNM GI attending physicians who provided coverage
at the facility were appropriately credentialed and privileged.

13
     VHA Handbook 1100.19, Credentialing and Privileging, October 15, 2012.

VA Office of Inspector General                                                                   6
   Gastroenterology Fellowship Program Issues, New Mexico VA Health Care System, Albuquerque, NM


We did not substantiate the allegation that senior leadership was unwilling or unable to
take corrective action. We found that facility leadership was aware of the complaint and
had initiated appropriate follow-up prior to our site visit.

                                 Recommendations 

We made no recommendations.




VA Office of Inspector General                                                                7
   Gastroenterology Fellowship Program Issues, New Mexico VA Health Care System, Albuquerque, NM
                                                                                    Appendix A
                            VISN Director Comments


               Department of
               Veterans Affairs                            Memorandum

    Date:      April 23, 2014
    From:      Director, VA Southwest Health Care Network (10N18)
 Subject:      Healthcare Inspection—GI Fellowship Program Issues, New
               Mexico VA Health Care System, Albuquerque, New Mexico
       To:     Director, San Diego Regional Office of Healthcare Inspections (54SD)
     Thru:     Director, Management Review Service (VHA 10AR MRS OIG Hotline)


             1. I concur with the attached facility response to this report from the OIG
                who following their visit from December 2–4, 2013, had no findings to
                substantiate the allegations.

             2. If you have additional questions or concerns, please contact Robert
                Baum, VISN 18 Executive Officer to the Network Director, at (480)
                397-2777.




VA Office of Inspector General                                                                8
   Gastroenterology Fellowship Program Issues, New Mexico VA Health Care System, Albuquerque, NM
                                                                                    Appendix B
                          System Director Comments


                 Department of
                 Veterans Affairs                          Memorandum

     Date:       April 22, 2014
     From:       Director, New Mexico VA Health Care System (501/00)
  Subject: 	     Healthcare Inspection—GI Fellowship Program Issues, New
                 Mexico VA Health Care System, Albuquerque, New Mexico
       To:       Director, VA Southwest Health Care Network (10N18)
               1. The VA Office of Inspector General (OIG) Office of Healthcare
                  Inspections conducted an inspection to assess the merit of
                  allegations made by an anonymous complainant regarding the
                  supervision of fellows in the Gastroenterology (GI) Service at the New
                  Mexico VA Health Care System (NMVAHCS), in Albuquerque, NM.

               2. I concur with the conclusions of the OIG who following their visit from
                  December 2-4, 2013, had no findings to substantiate the allegations.




VA Office of Inspector General                                                                9
   Gastroenterology Fellowship Program Issues, New Mexico VA Health Care System, Albuquerque, NM
                                                                                    Appendix C

                 OIG Contact and Staff Acknowledgments
Contact                  For more information about this report, please contact the OIG at
                         (202) 461-4720.
Contributors             Katrina Young, RN,BSN, MSHL Team Leader
                         Judy Montano, MS
                         Glen Pickens, RN, BSN, MHSM
                         Michael Shepherd, MD
                         Derrick Hudson, Program Support Assistant




VA Office of Inspector General                                                               10
   Gastroenterology Fellowship Program Issues, New Mexico VA Health Care System, Albuquerque, NM
                                                                                    Appendix E

                                 Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA Southwest Health Care Network (10N18)
Director, New Mexico VA Health Care System (501/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Martin Heinrich, Tom Udall
U.S. House of Representatives: Michelle Lujan Grisham, Ben R. Lujan, Steve Pearce




This report is available on our web site at www.va.gov/oig




VA Office of Inspector General                                                               11
